Ti

@OCKLE

: E-Mail
Legal Briefs ‘Mail Address:

Est. 1923 contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19-511

FACEBOOK, INC., PETITIONER
v.
NOAH DUGUID, INDIVIDUALLY AND ON
BEHALF OF HIMSELF AND ALL OTHERS SIMILARLY
SITUATED, AND UNITED STATES OF AMERICA

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR RETAIL
LITIGATION CENTER, INC. AS AMICUS CURIAE SUPPORTING PETITIONER in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this

brief contains 5878 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),
as needed.

Subscribed and sworn to before me this 20th day of November, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

sions Mile he Gh
State of Nebraska . ‘,
My Commission Expires Nov 24, 2020 G

Notary Public Affiant

 

 

38927
